  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




Child Support Enforcement Annual Report
               to Congress




                     JUNE GIBBS BROWN
                      Inspector General

                        OCTOBER 1998
                        OEI-02-98-00070
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee Dunn, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                                  HEADQUARTERS

Demetra Arapakos, Project Leader                        Linda Hall, Program Specialist

Jennifer Caves                                          Ann O’Connor, Program Specialist

Vincent Greiber

Ellen Vinkey





      To obtain copies of this report, please call the New York Regional Office at (212) 264-1998.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To provide the Office of Child Support Enforcement (OCSE) with user feedback on its Annual
Report to Congress.

BACKGROUND

The Child Support Enforcement program was established in 1975 under Title IV-D of the Social
Security Act. The program’s goal is to ensure that children are financially supported by both
parents. It is administered at the State level and overseen Federally by OCSE.

Congress requires OCSE to submit to them an Annual Report, describing program activities over
the prior year, no later than three months after the end of each fiscal year. While the law specifies
much of the data to be included in the report, the Annual Report contains a considerable amount
of information in addition to what is mandated. The OCSE compiles the Annual Report based on
States’ reports of their child support activities.

We conducted structured interviews, both in-person and over the telephone, with a purposive
sample of 36 individual users of the Annual Report representing Congressional staff, other Federal
agency staff (non-OCSE), State Child Support staff, academic staff, advocates, State legislators
and media representatives. Whereas in our earlier survey of State satisfaction with OCSE, every
State commented on the Annual Report, in this study we sought out individual users with
extensive knowledge and experience with the child support program and the Annual Report. We
particularly focused on users who need the report for policy purposes and have data expertise. In
addition to these 36 interviews, we also held discussions with senior staff from OCSE to help us
understand the context of users’ responses.

FINDINGS

Overall, Users Are Satisfied With and Rely on the Child Support Enforcement Annual
Report to Congress

Overall, a majority of users we spoke to (30 of 36) are satisfied with the Annual Report. Nearly
all view the report as a valuable and unique source of child support program information. Most
also praise the usefulness of the report and are generally happy with its current format; they find
the section with State data tables and data on collections the most useful to them. Users report
needing the Annual Report for several different purposes. Almost all use the report to answer
specific data questions and to compare State programs to each other, and many also rely on it to
conduct research (27), to obtain general program information (24), or to explain the child support
program to others (24).




                                             )))))))))))
                                                  i
Users Cite the Lack of a Clearly Defined Story Line, Timeliness, and Data Integrity as the
Report’s Main Weaknesses

Story Line. A majority of users (28) say the Annual Report, both data and text, does not convey
a clear and consistent message on what is happening in the child support enforcement program.
Half also thinks the report does not document program performance and that it lacks adequate
analysis and does not give the reader a sense of what is working in the program and what is not.
Others say the report lacks crucial data which is needed for them to evaluate the program’s
success.

Timeliness. Most users (22) also have concerns about the timeliness of the Annual Report. They
say that the report takes too long to be published; the 1995 Annual Report to Congress was not
released until the middle of 1997, and the 1996 report is yet to be published. Users must
therefore work with data that are out of date and no longer relevant.

Data Integrity. Despite their reliance on the Annual Report, most users (22) have concerns
about the integrity of the report’s data. Specifically, they believe the report contains data that are
not consistently accurate, reliable, or valid, and that some of the data are not comparable among
States. They are therefore forced to make policy decisions with data they have limited confidence
in, and are unable to compare State programs to the extent they would like.

Discussions with OCSE reveal that they are sensitive to users’ concerns about an unclear story
line, timeliness, and data integrity. Some believe the report’s original legislative mandate restricts
what data they can collect and report. They also point out that it must go through lengthy
clearance processes before it can be formally released. However, they are optimistic that when all
States have OCSE-certified systems, use standard definitions, and obtain funding through a new
incentive system, data quality will improve.

Users Identify Several Opportunities for Strengthening the Report to Better Meet Their
Needs

Users offer several suggestions for improving the Annual Report. Twenty-four want it to contain
more data analysis and report data in a more relevant context, such as providing more ratio and
denominators; 27 think the report should include additional data and 23 say it should contain
more explanation of the data. Furthermore, 17 users think OCSE should release a short and
focused summary document prior to publication of the final Annual Report and 11 suggest putting
preliminary data on the Internet. Finally, users also suggest re-evaluating the report’s narrative
section to make it more objective, increasing the report’s visibility, and making future reports
flexible to accommodate program changes. Most (22) think the report’s main purpose in the
future should be to show how well the program is performing, and a majority (30) do not believe
the report needs to be totally redesigned in order to do this.




                                             )))))))))))
                                                  ii
RECOMMENDATIONS

1.	    Based on user feedback, we believe that in the future the Child Support Enforcement
       Annual Report to Congress should focus primarily on performance.
       Specifically, it should:

       C      highlight program successes, strengths, and weaknesses;
       C      emphasize performance data which demonstrates how well the program is meeting
              its goals, and;
       C	     adequately describe program accomplishments that, when used to compare
              different program strategies, may be valuable to Federal policy makers and State
              programs.

2.	    We also believe OCSE should review the report’s production and distribution processes
       and identify specific actions to improve the report’s timeliness, which is a major concern
       of users.

We believe both of these recommendations complement recent Federal government initiatives.
Child support enforcement is a rapidly-changing program with a strong need for performance
measurement data. Such data are required by law under the Government Performance and
Results Act (GPRA), which mandates performance monitoring at the Federal level. Users believe
the report would best meet this mandate by providing information on program goals and
outcomes. Recent Federal strategies suggest performance measurement as a fundamental aspect
of future government policy, and many users, as well as OCSE, envision the Child Support
Enforcement Annual Report to Congress paralleling this new emphasis on government
accountability.

COMMENTS

We received comments on the draft report from the Administration for Children and Families,
which concur with our recommendations. Beginning in fiscal year 1999, OCSE is planning to
change the Annual Report to Congress to focus more on performance, and is also working to
streamline production and distribution of the report. The full comments are presented in
Appendix A.




                                           )))))))))))
                                                iii
                              TABLE OF CONTENTS


                                                                                                                                PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 !Overall, Users Are Satisfied With and Rely On Annual Report . . . . . . . . . . . . . . . . . . . . . . . 5


 !Lack of Story Line, Timeliness, And Data Integrity Cited As Main Weaknesses . . . . . . . . . . 7


 !Users Identify Opportunities for Strengthening Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12





                                                             )))))))))))

                            INTRODUCTION

PURPOSE

To provide the Office of Child Support Enforcement (OCSE) with user feedback on its Annual
Report to Congress.

BACKGROUND

Child Support Enforcement Program

The Child Support Enforcement program was established in 1975 under Title IV-D of the Social
Security Act. The goal of this program is to ensure that children, both Temporary Assistance to
Needy Families (TANF) and non-TANF, are financially supported by both parents. The major
services provided by the program include: 1) locating noncustodial parents; 2) establishing
paternity; 3) establishing child support obligations; and 4) enforcing child support orders.

The Child Support Enforcement Program is administered at the State level and overseen federally
by the Office of Child Support Enforcement (OCSE). One of OCSE's primary roles is to fund,
evaluate, and provide technical assistance to the States. The OCSE also sets program standards
and policy, and provides guidance to States in implementing that policy. Additionally, it provides
support for systems, demonstration projects, and operations. The OCSE has its central office in
Washington, D.C. and regional offices throughout the country.

The program has grown since its inception. In fiscal year 1993, the program's caseload consisted
of approximately 17 million cases, and almost $9 billion in child support was collected.
Preliminary data show that by 1996, the caseload had increased to more than 19 million cases, and
monetary collections were up to $12 billion. In 1994, the child support program was selected to
be a pilot project for the Government and Performance Results Act (GPRA), which mandates
performance monitoring at the Federal level.

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (Public Law 104-
193) had a direct impact on the Child Support Enforcement Program. Among the many changes
to the program enacted with welfare reform is a new system developed by to implement
performance-based incentive funding for States. With this new system, which is currently
working its way through the legislative process, State programs will be evaluated on five key
performance areas: paternity establishment; support order establishment; collection of current
support; collection of arrearages; and cost effectiveness. Each State will be paid an incentive
based on its score on these measures. Welfare reform also requires States to significantly expand
the capacity and functions of their automated systems.

Annual Report to Congress

In establishing the Child Support Enforcement Program, Congress requires OCSE to submit an
annual report to them no later than three months after the end of each fiscal year. The report is

                                            )))))))))))
                                                 1
intended to describe program activities over the prior year.

The law specifies much of the data to be included in the report. It must include detailed
information on program expenditures. The report must also include data on how much money is
collected as a result of child support enforcement services, and how collections are distributed
among families, and Federal, State, and local governments.

The law mandates that some information be reported separately for each State, such as the
number of interstate cases filed, the amount of collections made for interstate cases, and the
number of paternities established. It further requires that certain information be reported
separately for TANF, former-TANF and non-TANF cases. Lastly, it specifies that the report
document any major problems which have delayed or prevented implementation of the program.

While the legislation mandates the reporting of certain data, it does not define many of these data
elements. For example, the law mandates that OCSE report “the total number of cases in which
support was collected,” but does not define a “case.” State child support programs have not used
common definitions when reporting data, although OCSE hopes to change this in FY 1999.

The Annual Report contains a considerable amount of information in addition to what is required
by law. This additional material includes a general introduction to the program, a summary of the
year’s achievements, and descriptions of new initiatives and demonstration projects.

The OCSE compiles the Annual Report based on States’ reports of their child support activities.
States report their data to OCSE, who then tabulate the data for presentation in the report. The
report goes through a fairly lengthy review process and must be cleared by OCSE, the
Administration for Children and Families (ACF), and the Office of the Secretary (OS) in the
Department of Health and Human Services (DHHS) before being released in final.

OCSE Initiatives

The OCSE has recently undertaken various initiatives that will affect the Annual Report to
Congress. First, a Federal/State workgroup was convened to develop standard program
definitions. The group developed common definitions for basic program elements such as
deciding on what constitutes a “case.” The workgroup also developed new reporting forms for
State data. These forms will become effective in Fiscal Year 1999 and will be used by OCSE to
obtain information on the status and accomplishments of each State’s child support program.
Included on these forms are data elements for ten program items, such as case inventories and
paternity establishments.

Furthermore, in the future OCSE audits will assess the reliability of State data through
comprehensive examinations of States’ data collection and reporting systems. The new audits are
designed to provide assurance that the data States report are accurate and complete. The quality
of this data is especially important since they will be the basis of the new incentive funding system.
The data reliability audits will include an analysis of internal controls, an assessment of program
logic and data definitions, and data testing. These audits will be tested in select pilot States at the


                                             )))))))))))
                                                  2
end of this fiscal year.

METHODOLOGY

Sample Selection

We selected a purposive sample of 36 individual users of the Child Support Enforcement Annual
Report to Congress. First, we identified 7 main user groups for the report. These are:

        C       Congressional staff

        C       other Federal agency staff (non-OCSE)

        C       State Child Support staff

        C       Academic staff

        C       Advocates

        C       State legislators

        C       Media representatives


Within each group, we then selected individual users for our sample based on the following
criteria: their knowledge and experience with the child support program, their knowledge and
experience with the Annual Report, and recommendations from both OCSE and the Assistant
Secretary for Planning and Evaluation (ASPE).

In selecting users for our interviews, we sought out individuals who are very familiar with the
Annual Report and need it to do their work. We particularly focused on users who need the
report for policy purposes. In a prior survey of State satisfaction with OCSE, we asked all 50
State child support directors about the Annual Report; their input helped shape this evaluation.
In general, they say they use the Annual Report and rely on it to support their State programs.
Most also recommend making the report more timely. We chose five States with particular
experience or concerns about child support data for this user feedback survey.

Interviews with Users

We conducted extensive interviews, in person and by telephone, with the 36 individuals selected
for our sample. We will refer to these individuals as “users” in the findings of this report. We
spoke with:

        C	      5 Congressional staff, representing both the House of Representatives and the
                Senate, as well as both the Democratic and Republican parties;
        C	      11 staff from Federal agencies, including the Office of the Secretary and
                Administration for Children in the DHHS, the Office of Management and Budget,
                the Congressional Budget Office, the General Accounting Office, and the Library
                of Congress;
        C       5 State child support staff from five States;

        C       7 representatives from seven different advocacy groups; 

        C       4 university-based researchers; 



                                           )))))))))))
                                                3
       C       2 State legislators, and; 

       C       2 reporters from two national newspapers. 


Discussions with OCSE

In addition to our formal interviews with 36 users, we also held discussions with senior staff from
OCSE to help us understand the context of users’ responses. During these discussions, we talked
about the process involved in putting together the report as well as what they envision for the
report in the future.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                            )))))))))))
                                                 4
                                     FINDINGS

OVERALL, USERS ARE SATISFIED WITH AND RELY ON THE CHILD SUPPORT
ENFORCEMENT ANNUAL REPORT TO CONGRESS

The Majority of Users are Satisfied With the Report

Overall, a majority of users we spoke to (30 of 36) are satisfied with the Annual Report to
Congress. These users are about evenly divided between those that are very satisfied and those
that are somewhat satisfied. Of the remaining six users, five are very or somewhat dissatisfied,
and one offers no opinion. Within individual user groups, a majority are satisfied overall.
However, both of the very dissatisfied users are advocates.

Nearly all users view the report as a valuable and unique source of child support program
information. Many comment that it is the main data resource on child support and the first place
they go when they want to find out about the program. Despite having somewhat different needs,
users concur that the Annual Report contains the type of data they need to do their job.

A majority of users (27) also praise the usefulness of the report. Many cite valuable and ample
data as the main reasons why they think the report is useful. They also like the report’s
readability, and comment that it is well organized, has a consistent format, and presents data in a
straightforward way.

Finally, users are also generally happy with the report’s current format. More specifically, the
majority suggests the report remain the same in terms of overall length, number of graphics,
amount of text, and data tables. However, 10 users would like to see more data tables.
Furthermore, 2 mention recent changes to the report, such as photographs and icons within
graphs, as not entirely necessary. Finally, a few believe color coding and section tabs would help
the reader to navigate through the report.

Users Need the Report for a Variety of Purposes

Users report using the Annual Report to Congress in several different ways. Almost all use the
report to answer specific data questions (35) and to compare State programs to each other (31).
At least half of all users also use the report to conduct research, to obtain general program
information, or to explain the child support program to others. Of all potential uses, the least
common is to promote or advocate on behalf of the program. Fifteen users need the report for
this purpose, including all seven advocates. Their greater need of the report for this purpose is
the only difference among groups on how they use the Annual Report.




                                            )))))))))))
                                                 5
Users find particular sections of the report more useful than others. Table A below shows which
sections of the report they use on a regular basis. As this table illustrates, users say that, of all the
different sections, the one with State data tables is the most important to them.

                                             Table A
                             Report Sections Used on A Regular Basis

              Report Section                                            Regular Users
                                                                              #
              State Data Tables                                                33
              State Box Scores                                                 24
              Graphic Summaries of Program Results                             18
              State Child Support Program Addresses                            12
              Federal Legislative History                                      11
              OCSE Organizational Charts                                       10
              Text on New Program Initiatives                                   8
              Program Overview                                                  7
              Lists of State and Regional GPRA Projects                         3
              Appendix Summarizing Action Transmittals                          3

Users also prefer certain types of data over others. Most (23) find the information on collections
the most useful. Fourteen or more also say State-specific data and performance data is useful to
them. On the other hand, only nine say data on paternities and expenditures is of greatest
importance.

Users make frequent use of the report in their work, 9 use the report at least weekly, and 12 use
the report monthly. Advocates appear to be the most frequent users; six of the seven advocates
say they use the Annual Report at least monthly, and in fact half say they use it weekly. Over half
of other Federal agency staff also use the report on a weekly basis. Media representatives and
State legislators are the most infrequent users.

Users Need a Variety of Child Support Data

Users report needing different types of child support data. In order to effectively do their jobs, 13
say they need State-specific data and performance data, ten need financial data (six of which are
Federal agency staff), and nine need data on program successes and weaknesses. The data needs
of academics, media representatives, and State legislators are more limited than those of
Congressional and other Federal agency staff, whose needs tend to be broader in scope. Certain


                                              )))))))))))
                                                   6
groups have particular needs for certain types of data. Congressional staff have the greatest need
for State specific data, other Federal agency staff have the greatest need for performance and
financial data, and advocates’ greatest need is for performance data.

USERS CITE THE LACK OF A CLEARLY DEFINED STORY LINE, TIMELINESS,
AND DATA INTEGRITY AS THE REPORT’S MAIN WEAKNESSES

The Report Does Not Tell a Clear Story

A majority of users (28) say the Annual Report to Congress, both data and text, does not convey
a clear and consistent message on what is happening in the child support enforcement program.
For example, many users want the report to link program resources with program outcomes, such
as whether committing resources to license revocation results in the collection of additional child
support payments.

Half of the users think the report does not show how the program is performing. Those who think
the report is unsuccessful in documenting program performance say the report lacks analysis and
does not give the reader a sense of what is working in the program and what is not. Says one
user, “the way the current report is structured, the success of the program is underestimated . . .
[the report] does not accurately reflect how well the program is doing.” Others say the report
lacks crucial data which is needed for them to evaluate the program’s success. For example,
some users note that no data are reported on the number of families or children receiving child
support services, making it difficult to know if the program is meeting its ultimate goal.

On the other hand, a similar number of users say the report does an excellent or good job showing
program performance. They say the report is data-intensive and provides a good overview of the
program. One user makes the point that, considering the difficulty in showing how the program is
doing given State variation, the report does a good job. Another believes it is up to the reader,
using data from the report, to make his or her own judgement on how well the program is
performing.

Some staff in OCSE believe the report’s original legislative mandate limits what data they can
collect and report in the Annual Report to Congress. They say that they are not able to collect
more relevant and meaningful data because the legislation is outdated and has not been amended
to reflect the many changes to child support enforcement over the past several years. They also
say that in the future they would like to be able to highlight the program’s successes and program
goals and outcomes. Furthermore, staff in OCSE say they are reluctant to report more ratios,
which might help to establish a more clearly defined story, because all necessary data may be
unavailable or unreliable.

The Report is Not Timely

Most users (22) also have concerns about the timeliness of the Annual Report. They say that the
report takes too long to be published. As an example of this delay, the 1995 Annual Report to
Congress was not released until the middle of 1997, and the 1996 report is yet to be published.


                                            )))))))))))
                                                 7
As a result, users must work with data that are out of date and no longer relevant in their work.
One Congressional staffer says timeliness is a problem when Congressmen want to know the
impact of welfare reform on child support enforcement and no current data are available to
answer their questions. State child support staff are concerned with timeliness because they
would like to be able to present more up-to-date comparative data to their State legislators.
Additionally, a few users mention that it is difficult to publicize the program and explain it to
others when the numbers are so outdated. One user, reflecting the views of several others, says
the report “shouldn’t lag more than one year. [OCSE] should allow 6 months for States to report
and correct their data, and 6 months to publish.”

Staff from OCSE are also concerned with timeliness. They point out that the Annual Report must
go through a lengthy clearance process before it can be formally released. They also say that they
are required to respond to comments from reviewers at each level of review before the report
moves on. Furthermore, OCSE staff point out that States are allowed 6 months by law to revise
their data. This time period is longer than the law’s requirement that the Annual Report be
published no later than 3 months after the end of each fiscal year. Finally, OCSE staff state that
the program has become more visible in recent years, which can influence when the report is
released.

The Report Contains Poor Quality Data

Despite their use of and reliance on the Annual Report, most users (22) have additional concerns
with the integrity of its data. More specifically, they believe the report contains data that are not
consistently accurate, reliable, or valid. Many also mention that some of the data reported are not
comparable among States. As a result, they are forced to make policy decisions with data they
have limited confidence in, and are not able to compare State programs to the extent they would
like. Poor quality data is also a major reason why many users think the current report fails to
meet all of their needs for child support information. Several users suggest OCSE provide some
explanation of problems with data which may not be entirely accurate or reliable, such as on
interstate cases. A majority also believe OCSE’s reporting forms should be included in the report,
to show where the data come from.

Discussions with OCSE reveal that they are sensitive to users’ concerns about poor quality data.
Some point out that States do not always report accurate data and are not always responsive to
suggestions that they correct any questionable numbers. However, they are optimistic that quality
will improve in the future. First, once all States have certified systems in place, the data States
collect and report will be more comparable and reliable. Second, States will start to use standard
definitions for basic program elements beginning in Fiscal Year 1999. This should eliminate some
of the differences among States in how data are collected. For example, States should report
unduplicated caseloads using a standard definition for “case.” Finally, with the implementation of
incentive funding, States will be motivated to report accurate data in order to obtain greater
funding for their State.

Most users react favorably to the recent OCSE initiatives to improve the quality of data in the
report. Twenty-one are aware of the new standard definitions, and most believe these definitions


                                            )))))))))))
                                                 8
will improve the quality and comparability of data in the report. Several also mention that
certified systems should facilitate more standardized data collection.

Users Judge the Report on Data Accuracy, Usefulness of Data, and Timeliness

When selecting among multiple criteria that they would use to judge the Annual Report to
Congress, nearly all users choose accuracy of State data, usefulness of data, and timeliness (35, 34
and 34 respectively), and rank these as being of greatest importance to them. As illustrated in
Table B below, two of the criteria users rate as being most important to them are also those that
they rate the lowest.
                                              Table B
                                  Users’ Evaluation of Report

               Rank*                      Criteria                    Average
                                                                      Rating**
                 1       Accuracy of Underlying State Data               Fair
                 2       Usefulness of Data                             Good
                 3       Timeliness                                     Poor
                 4       Accuracy of OCSE Reporting                     Good
                 5       Usefulness of Text                             Good

               * Users’ ranking in order of most important to least important
               ** On a 4-point scale from excellent to poor

USERS IDENTIFY SEVERAL OPPORTUNITIES FOR STRENGTHENING THE
REPORT TO BETTER MEET THEIR NEEDS

Report Data in a More Meaningful Way

A majority of users (24) say they want the report to contain more analysis of the data. In addition
to wanting more context, users say they would also like further analysis of multi-year trend data,
differences across States that affect performance, and the impact of recent program initiatives.
Some users also suggest that OCSE make the most important data tables available in spreadsheet
software format (such as Lotus or Quattro Pro), which would enable them to do additional
analysis of the raw data on their own.

Similarly, 19 users suggest that the report present data in a more relevant context. In particular,
they cite a desire for denominators and ratios to make the data more meaningful and comparable.
For example, users want the report to give a ratio for the number of children who receive child
support payments over the total number of children who are eligible for child support. This
would be more helpful in showing how successful the program is in getting child support to the
children who need it. In fact, OCSE staff indicate more meaningful ratios will be reported once

                                            )))))))))))
                                                 9
incentive funding data collection is fully implemented.

Many users believe that, without placing the data in a meaningful context and providing additional
analysis, numbers alone do not tell how well the program is doing. One says, “You need
denominators to tell the real story.” She suggests the report include statistics on collections
received per amount due, and paternities established as a percentage of the number in need of
being established. Users also want the report to provide an accurate picture of the program over
time, enabling them to inform constituents, plan strategically, and effectively evaluate existing
policies.

In addition to providing data in a more meaningful context, 23 users also think the report should
contain more explanation of the data than it does now. The most frequent request for more
explanation is for further definition of the data elements being reported. Some users also suggest
integrating child support data with other program data, such as data from Head Start and TANF.

Another specific suggestion users have regarding the report’s data is to include more of it in the
report. The majority of users (27) say important data are missing from the report. Some of their
requests for additional data are very specific, such as license suspension data, data on non-
custodial parents’ income and data related to the aging of debt. Other suggestions for what other
data the report should include are broader, such as data on incentive funding measures, outcomes
attributable to different initiatives, and the impact of welfare reform.

Make Program Information Available Sooner

As already noted, the majority of users indicate that data in the report are out-of-date by the time
it is published. While they acknowledge the challenges associated with getting a report of this
nature out quickly, they do believe timeliness needs to be improved and offer specific suggestions
for getting data out sooner. First, users who have access to preliminary report data cite this as a
good step toward getting information out quicker; 11 suggest that OCSE release preliminary data
on the Internet. Many users also cite the need to reduce the time it takes to review the report
prior to publication. One user points out that incentive funding presents an opportunity to
motivate States to improve the timeliness of their data submissions, thus allowing OCSE to speed
up publication of the report.

Seventeen users suggest that OCSE release a short, focused summary document, preferably
within one year of the end of the reporting period and prior to publication of the final Annual
Report to Congress. One Congressional staffer says “I would like to see a shorter version of the
report [before the Annual Report] with the most pertinent statistics because I need to have data in
hand which reflects recent changes to the program for the upcoming legislative session.” Another
user envisions one report, released on a fast track, which would be “refined, crisp, and limited to
key indicators,” and a second report including “background information, additional statistics, and
details that are secondary in nature.”

Re-evaluate the Report’s Narrative Section

Users give mixed reviews of the report’s narrative section. Only a small number of users report

                                            )))))))))))
                                                10
using this section of the report on a regular basis, one of whom says that having the program
highlights in both textual and graphic form is helpful. However, 10 users suggest that the report
has too much “spin” and is not objective enough. One suggests, “focus [should be] on giving an
accurate picture instead of cheerleading.” Another user captures a number of others’ thoughts on
the narrative section by saying “the text needs to be more of an analysis and summary of what’s
going on with the Child Support Enforcement program and why.”

Consider Wider Distribution and Better Publicity of the Report

Half of the users suggest more publicity of the Annual Report. More specifically, they say it
should be better publicized to Congress, the media, and academia. For example, some advocates
say they have to answer questions about the program from Congressional staffers who are not
aware of the report’s existence. On a related note, half of all users say they did not get the 1995
report right away; these users are more likely to think the report should be better publicized. For
example, one of the State legislators says she had difficulty obtaining the 1995 Annual Report.
This suggests that, at a minimum, a more thorough distribution of the report would help
interested users get the report sooner.

Make Future Reports Flexible to Accommodate Changes to the Program

In the future, as child support enforcement continues to change, most users (22) think the report’s
main purpose should be to show how well the program is performing. However, a majority (30)
do not believe the report needs to be totally redesigned in order to do this. In fact, several users
caution that changing the report too much might exclude a particular audience or threaten data
continuity. A few users also note that they are finally familiar with the current report and that a
totally new format would be frustrating.

Only five users suggest a completely new document for the future. These users believe that only a
completely redesigned report can adequately meet the main purpose of showing overall program
performance. Specifically, these users think that future reports should include other relevant
actors from within government, the nonprofit sector, private interests, and even “the man on the
street.” Some hope this will lend greater objectivity to the report, while others believe that
different perspectives will better inform the report. One staff person from OCSE adds that the
inclusion of more States in future designing of the report would not only be helpful but would also
enhance current Federal/ State partnership goals.

When asked to suggest other reports of value, the most frequently cited is the Green Book, which
is published annually by the House Ways and Means Committee and contains background and
data on human service programs. Users believe this report provides a detailed and comprehensive
story, with sufficient context and analysis. In particular, it is considered the standard resource for
trend data and legislative changes; according to users, it is well-written, concise, and objective.




                                             )))))))))))
                                                 11
                      RECOMMENDATIONS

1.	    Based on user feedback, we believe that in the future the Child Support Enforcement
       Annual Report to Congress should focus primarily on performance.

       Specifically, it should:

       C       highlight program successes, strengths, and weaknesses;
       C       emphasize performance data which demonstrates how well the program is meeting
               its goals, and;
       C	      adequately describe program accomplishments that, when used to compare
               different program strategies, may be valuable to Federal policy makers and State
               programs.

2.	    We also believe OCSE should review the report’s production and distribution processes
       and identify specific actions to improve the report’s timeliness, which is a major concern
       of users.

We believe both of these recommendations complement recent Federal government initiatives.
Child support enforcement is a rapidly-changing program with a strong need for performance
measurement data. Such data are required by law under the Government Performance and
Results Act (GPRA), which mandates performance monitoring at the Federal level. Users believe
the report would best meet this mandate by providing information on program goals and
outcomes. Recent Federal strategies suggest performance measurement as a fundamental aspect
of future government policy, and many users, as well as OCSE, envision the Child Support
Enforcement Annual Report to Congress paralleling this new emphasis on government
accountability.

COMMENTS

We received comments on the draft report from the Administration for Children and Families.
The ACF concurs with our recommendations. Beginning in fiscal year 1999, OCSE is planning to
change the Annual Report to Congress to focus more on performance, and is also working to
streamline production and distribution of the report. The full comments are presented in
Appendix A.




                                           )))))))))))
                                               12
                                 APPENDIX A
In this appendix, we present in full the comments from the Administration for Children and
Families.




                                           )))))))))))
                                              A-1
)))))))))))
   A - 2

)))))))))))
   A - 3

)))))))))))
   A - 4

